<

Case No.

IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR DC CIRCUIT
CASE NUMBER 96-7212
Dist. Ct. 96-CV-1616

PARAMOUNT PICTURES, TOUCHSTONE PICTURES, SIMON &
SCHUSTER INC, ET AL
RESPONDENTS,
AMENDED PROOF OF SERVICE FOR VA Status

I, David Louis Whitehead, do swear or declare that on this date, May 14, 2021, as
required by the Supreme Court Rule 29,1 have and Petition for A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person or entity required to be served, by depositing an envelope
containing the documents in the United States mail properly addressed to counsel
for the respondents known to the petitioner, with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days.

4'

[*—

The names and addresses of the those served, legal representatives for
Paramount Pictures, Touchstone Pictures of Walt Disney, and Simon & Schuster,
Inc, of Paramount Communication of Viacom and Paramount Pictures as follows:
Paul Gaffney, esq, Counsel for the law firm of Williams and Connolly LLP at
Williams & Connolly LLP
725 Twelfth St. N.W.
Washington, D.C. 2005
D 202-424-5000
F 202-434-5029

